<html>
<title> - HOW THE CLEAN AIR ACT AFFECTS AUTO REPAIR</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                                                   S. Hrg. 102-000 
 
               HOW THE CLEAN AIR ACT AFFECTS AUTO REPAIR

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON WORKFORCE, EMPOWERMENT & GOVERNMENT PROGRAMS

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                     WASHINGTON, DC, JUNE 28, 2005

                               __________

                           Serial No. 109-23

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-178                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
TODD AKIN, Missouri                  ENI FALEOMAVAEGA, American Samoa
BILL SHUSTER, Pennsylvania           DONNA CHRISTENSEN, Virgin Islands
MARILYN MUSGRAVE, Colorado           DANNY DAVIS, Illinois
JEB BRADLEY, New Hampshire           ED CASE, Hawaii
STEVE KING, Iowa                     MADELEINE BORDALLO, Guam
THADDEUS McCOTTER, Michigan          RAUL GRIJALVA, Arizona
RIC KELLER, Florida                  MICHAEL MICHAUD, Maine
TED POE, Texas                       LINDA SANCHEZ, California
MICHAEL SODREL, Indiana              JOHN BARROW, Georgia
JEFF FORTENBERRY, Nebraska           MELISSA BEAN, Illinois
MICHAEL FITZPATRICK, Pennsylvania    GWEN MOORE, Wisconsin
LYNN WESTMORELAND, Georgia
LOUIE GOHMERT, Texas

                  J. Matthew Szymanski, Chief of Staff

          Phil Eskeland, Deputy Chief of Staff/Policy Director

                  Michael Day, Minority Staff Director

     SUBCOMMITTEE ON WORKFORCE, EMPOWERMENT AND GOVERNMENT PROGRAMS

MARILYN MUSGRAVE, Colorado Chairman  DANIEL LIPINSKI, Illinois
ROSCOE BARTLETT, Maryland            TOM UDALL, New Mexico
BILL SHUSTER, Pennsylvania           DANNY DAVIS, Illinois
MICHAEL FITZPATRICK, Pennsylvania    RAUL GRIJALVA, Arizona
LYNN WESTMORELAND, Georgia           MELISSA BEAN, Illinois
THADDEUS McCOTTER, Michigan          GWEN MOORE, Wisconsin
JEB BRADLEY, New Hampshire

                   Piper Largent, Professional Staff

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Barton, Hon. Joe, Chairman, Energy and Commerce Committee, US 
  House of Representatives.......................................     4
Houska, Mr. Dennis, Houska Automotive Service....................    13
Bordoff, Mr. Fred, Vice President, Service Station Dealers 
  Association....................................................    14
Ehlert, Mr. Eddie, Mazdonly, Ltd.................................    16
Lowe, Mr. Aaron, Vice President, Government Affairs, Automotive 
  Aftermarket Industry Association...............................    17
Cabaniss, Mr. John, Jr., Director of Environment and Energy, 
  Association of International Automobile Manufacturers, Inc.....    20
Marvaso, Ms. Kathleen, Managing Director, Government Affairs, AAA    21

                                Appendix

Opening statements:
    Musgrave, Hon. Marilyn.......................................    30
    Westmoreland, Hon. Lynn......................................    32
Prepared statements:
    Barton, Hon. Joe, Chairman, Energy and Commerce Committee, US 
      House of Representatives...................................    33
    Houska, Mr. Dennis, Houska Automotive Service................    37
    Bordoff, Mr. Fred, Vice President, Service Station Dealers 
      Association................................................    42
    Lowe, Mr. Aaron, Vice President, Government Affairs, 
      Automotive Aftermarket Industry Association................    46
    Cabaniss, Mr. John, Jr., Director of Environment and Energy, 
      Association of International Automobile Manufacturers, Inc.    57
    Marvaso, Ms. Kathleen, Managing Director, Government Affairs, 
      AAA........................................................    62
Additional material:
    Tire Industry Association....................................    64

                                 (iii)
      



               HOW THE CLEAN AIR ACT AFFECTS AUTO REPAIR

                              ----------                              


                         TUESDAY, JUNE 28, 2005

                   House of Representatives
        Subcommittee on Workforce, Empowerment and 
                                Government Programs
                                Committee on Small Business
                                                     Washington, DC
    The Subcommittee met, pursuant to call, at 2:03 p.m. in 
Room 311, Cannon House Office Building, Hon. Marilyn N. 
Musgrave, [Chairman of the Subcommittee] presiding.
    Present: Representatives Musgrave, Lipinski, Shuster, 
Udall, and Westmoreland. 
    Chairwoman Musgrave. Good afternoon and welcome to the 
Workforce, Empowerment and Government Programs Subcommittee. 
Today's hearing will focus on how the Clean Air Act affects 
auto repair.
    I appreciate everyone's participation in this hearing, 
particularly those of you that have traveled great distances to 
get here.
    When the Clean Air Act of 1990 was passed, it included a 
provision that required automobile manufacturers to provide an 
on-board diagnostic system to monitor emissions. Car makers 
were required to show this information to facilitate repair 
diagnoses pertaining to emissions. No other vehicle systems 
were subject to the disclosures mandated by the Clean Air Act.
    However, as more systems on our cars became electronically 
controlled, some independent repair shops began reporting 
difficulty in acquiring information to diagnose other computer-
controlled systems within vehicles.
    Today, automobiles have several complex computer systems 
that control braking, ignition, security, steering, emissions, 
safety, and climate control. As a result, the information and 
expertise needed to diagnose and repair them has increased 
dramatically.
    It is estimated that most newer vehicles have a minimum of 
15 separate computers on-board. This hearing will focus on H.R. 
2048, ``The Motor Vehicle's Owner Right to Repair'' bill 
introduced by Representative Joe Barton. I appreciate Chairman 
Barton coming here today to offer his testimony before this 
Subcommittee on this bill.
    U.S. consumers spend almost $200 million to maintain and 
repair the 200 million cars on the road. The American economy 
also benefits from a competitive after-market industry that 
provides jobs to more than 5 million workers in almost 500,000 
predominantly small businesses, and generates more than $200 
billion in sales annually.
    I look forward to receiving testimony from other witnesses 
as well. It is important to hear the perspective of all parties 
effected by this issue, whether they are franchisees, 
independent repair shops or dealership owners, all of them have 
one thing in common. They are all small businesses.
    I now recognize our distinguished Ranking Member on the 
Subcommittee, Representative Lipinski, for his opening 
statement.
    [Chairman Musgrave's opening statement may be found in the 
appendix.]
    Mr. Lipinski. Thank you, Madam Chairman.
    As we advance in the twenty-first century so do our cars 
and trucks. Today's vehicles continue to get more and more 
sophisticated with technological advances such as computerized 
navigation and ignition systems. In recent years, there has 
been a push to make our cars more resilient, powerful, and 
environmentally sound.
    Along with today's automotive advancements comes a need for 
advanced knowledge of repair and service. There is an obvious 
gap here. The types of repair manuals that may have sufficed a 
decade ago simply do not provide the information necessary to 
repair newer, more complex vehicles.
    Today's repair shops need to know how to check settings, 
component schematics, and equipment interfaces, something they 
simply aren't able to get from repair manuals.
    As vehicles become more complex, the lack of readily 
accessible repair information would have undesirable 
consequences. With fewer shops available to do a repair, we 
have to expect increased cost for car owners. Given the 
expenses that already exist with today's vehicles, consumers do 
not need any additional cost for their cars.
    It is important that consumers have options when it comes 
to getting their cars repaired, and that they can rely on their 
local repair shops to get the job done. Many people turn to 
their long-time neighborhood mechanics, the ones that they have 
come to trust, who are usually small business owners, but how 
do mechanics understand the mechanical, technical, and computer 
systems on each car model?
    Currently in place is a voluntary system for sharing 
information between automobile manufacturers and service shops. 
This system is designed to allow web-based access to 
information on how to repair and service vehicles from over 30 
different brands. But there are questions about how well this 
voluntary system works.
    Today's hearing will examine whether there is a problem and 
to what extent it persists. We will specifically look at one 
possible solution, H.R. 2048, the Right to Repair Act, which 
has been introduced by Mr. Barton, Chair of the Energy and 
Commerce Committee. I applaud Mr. Barton for his work on this 
issue, and I look forward to hearing his testimony.
    H.R. 2048 creates a system that would allow access via the 
Internet to repair information and service training for all 
parts of the vehicle. This would be administered and enforced 
by the FTC. In addition, the bill creates a legal duty to 
immediately provide a vehicle owner or repair shop of the 
owner's choosing with all the necessary information to diagnose 
or repair the vehicle. This sounds like a reasonable approach, 
but we must evaluate all of its possible implications.
    As the Committee proceeds today to examine this issue, it 
is important to ensure that whatever solution is found does not 
have unintended negative consequences. While working to solve 
one problem, we need to guard against creating additional ones 
through our actions.
    Clearly, there are small businesses on both sides of this 
issue, whether it is an independent repair shop or a local 
dealership, all of whom would be impacted by the right to 
repair bill. It is very important that we carefully examine the 
issue and evaluate the necessity for these types of changes.
    The automotive service and repair issue involves many 
players--repair shops, dealerships and consumers, and we need 
to make sure that any changes are fair and balanced for all of 
those involved. We want to have a system that provides 
information, doesn't give one entity an advantage over the 
other, and in the end gives the consumer the best possible 
deal.
    This is an important topic and I look forward to hearing 
the testimony of today's witnesses and to our discussion. Thank 
you.
    Chairwoman Musgrave. Thank you, Mr. Lipinski.
    Mr. Westmoreland, would you like time for an opening 
statement?
    Mr. Westmoreland. Yes, ma'am. Thank you, Madam Chairman, 
for holding this hearing today, and I appreciate all the 
willingness of all you to come testify and to be present during 
this hearing. It is nice to see that we have got somebody from 
Georgia here, Mr. Ehlert, and we welcome him to testify, and I 
have met with representatives from most of the organizations 
and associations present today, and I must admit something is 
not quite making sense about this whole thing.
    Now, I have not heard from any of my constituents. I have 
called some of the auto repair dealers in my district, but what 
I have heard from is a lot of people from across Georgia that 
are not in my district, and somebody out there, Ms. Chairman, 
is spending a lot of money doing some third-party phone 
calling. And I know it is good money that you are spending and 
I would use it wisely, but when you connect them with a 
congressional office you might want to make sure that it goes 
to the office that they actually have some representation from.
    Always, there are a lot of disparities in the stories that 
you hear up here, and this one is no different. I look forward 
to hearing today from both sides. I am going into this hearing 
with an open mind, and the main thing that really bothers me, I 
guess, is the fact that we are trying to create a new 
bureaucracy for them to look at a problem or an issue that from 
my understanding and from my looking into the issue that there 
is already a private sector mechanism that is in place to work.
    Now, it may have some problems, but we are here today to 
hear about those problems and learn what we can do about it, 
and Ms. Chairman, that is what I have. Thank you.
    [Congressman Westmoreland's opening statement may be found 
in the appendix.]
    Chairwoman Musgrave. Thank you. Mr. Udall.
    Mr. Udall. Madam Chair, thank you very much, and appreciate 
you holding this hearing. I think that we are all concerned 
about the Clean Air Act and concerned about how the Clean Air 
Act impacts auto repair and small business.
    I would welcome the witnesses. I know that many of them 
have come from a long distance, and appreciate having them 
here.
    Clearly, there are a couple important issues here today. 
One concerns consumers, and the ability for them to get their 
autos repaired. Another is the issue of small business. We have 
independent small businesses and also franchise dealer shops 
and other variations that are out there, and we need to make 
sure we are being fair to all of them, and the key issue, as 
the previous speaker, my colleague just mentioned, is this 
national automotive service task force.
    We have a voluntary system in place. I will be very 
interested to hear from the witnesses how it is working, what 
are the problems, and it seems a key issue here is if it is 
working well, why replace it.
    So with that I look forward to getting to the witnesses, 
and thank you very much, Madam Chair.
    Chairwoman Musgrave. Thank you, Mr. Udall.
    We are waiting just a moment on Chairman Barton. We will 
see if he can be here shortly, if you will be patient for a 
moment, please.
    [Off the record.]
    Chairwoman Musgrave. Welcome to the Committee, and we are 
delighted that you are here and look forward to hearing from 
you.

  STATEMENT OF THE HONORABLE JOE BARTON, ENERGY AND COMMERCE 
                           COMMITTEE

    Mr. Barton. I am glad to testify before the Small Business 
Committee on H.R. 2048, the Right to Repair Bill. I have a 
formal statement. Do you want me to just put in the record and 
talk, or do you want me to read it?
    Chairwoman Musgrave. Why do you not put it in the record 
and just talk to us.
    Mr. Barton. Okay.
    Chairwoman Musgrave. That would be great.
    Mr. Barton. Then I would ask unanimous consent to put the 
statement in the record, and let me just briefly apprise the 
Committee of what we are trying to do.
    We all have in our districts hundreds and in some cases 
maybe thousands of small businesses that sell auto parts and 
repair cars and trucks. Many of our constituents do not have 
new cars. The cars are not in warranty. So when they need a 
repair, they need a part. They want to take it to an 
independent auto repair shop.
    Because of the complexity of today's engines, more and more 
the diagnostics are such that it takes special computer 
equipment, special computer programs to even find out what is 
wrong with the car. And our automobile manufacturers who have 
done world-class engineering more and more are reluctant to 
share the information with the small independent auto repair 
shops.
    So about four years ago I was approached by some--in the 
repair industry in my district, and we sat down with the 
dealers and we sat down with the manufacturers, and we tried to 
come up with a voluntary agreement to share nonproprietary 
information with these repair shops.
    There was a volunteer agreement. That volunteer agreement 
kicked in in late 2002, which is almost three years ago or is 
three years ago, and the manufacturers and the dealers said 
problem solved.
    The problem with that is the problem is not solved. You can 
pay for the computer. You can pay for the software. You can get 
your PIN number, and somebody comes in with a vehicle to an 
independent shop, it can take between eight days to two weeks 
to get the information necessary to repair that vehicle. Not 
many people are going to wait that long.
    So earlier this year I reintroduced H.R. 2048 which would 
require that that information be shared. Again, it is 
nonproprietary. We are not trying to seal the trade secrets of 
GM or Chrysler or Ford or Toyota or Mazda or anybody else, but 
we are saying that it is the tradition in this country that you 
have an independent auto parts industry and an independent 
repair industry, and if the industry cannot have a voluntary 
agreement, then we will stipulate in federal law how that 
information--again in a nonproprietary fashion--has to be 
shared.
    The bill is introduced. It is in the jurisdiction of the 
Energy and Commerce Committee, which I happen to Chair, and we 
are waiting to see if we can get voluntary agreement. If we 
cannot, I am prepared to move the bill, and I believe I know 
how to count votes. I believe we have got the votes to pass it. 
I think if we put it on the floor, it is going to pass 
overwhelmingly.
    In the last Congress, a bill similar to this bill had over 
100 co-sponsors, and we are endorsed by the AAA, the NFIB, 
which is a small business association, the Retail Industry 
Leaders Association, and a number of other groups. So I think 
this issue has legs. I think the publicity that you are going 
to give it today and the information that is going to be 
elicited by this hearing will probably give us some much needed 
momentum.
    And with that, Madam Chairwoman, I would be happy to answer 
questions.
    [Congressman Barton's statement may be found in the 
appendix.]
    Chairwoman Musgrave. I think at this time I will ask, Mr. 
Westmoreland, if you have questions.
    Mr. Westmoreland. Thank you.
    Mr. Chairman, you said that with the voluntary system as it 
is now if somebody went on the web page or whatever it is to 
get it, it would take?
    Mr. Barton. Eight to 15 days.
    Mr. Westmoreland. Eight to 15 days. Now, is this from the 
website that the manufacturers and dealers have put up or is 
this another site?
    Mr. Barton. No, it is the site that has been voluntarily 
agreed to, and the repair, the independent repair shop still 
has to pay for the computer, has to pay for the software, has 
to pay a licensing fee, has to get a PIN number, but when they 
do that they go through the protocol, and eventually it just 
comes up. They do not get the information.
    They call the hot line number, and they get, you know, they 
get referred, and get back to you. On the other hand, if you 
are a certified dealer, they will get you an answer in about 30 
minutes.
    Mr. Westmoreland. Okay. The proprietary portion of this, 
this is nothing--these requests do not have anything to do with 
those types of things such as emissions or security--
    Mr. Barton. No.
    Mr. Westmoreland. --or whatever?
    Mr. Barton. And the bill as drafted now stipulates that.
    Mr. Westmoreland. Okay.
    Mr. Barton. See, I have dealers too, and I have a GM 
assembly plant in my district. I am not trying to--
    Mr. Westmoreland. No, sir. I understand.
    Mr. Barton. --take unfair advantage.
    Mr. Westmoreland. I understand that, but do you happen, and 
this is where I am having a little bit of problem understanding 
it, do you have a list of specifics that you could give that 
would, I guess, make it--to show that it is to a point that has 
to have federal legislation to correct it?
    Mr. Barton. Well, we could have a laptop computer brought 
into your office or probably even on your own computer and let 
you run through the protocol. You would have to get the correct 
passwords and that kind of thing, and let you see for yourself.
    Mr. Westmoreland. I know, but I am talking about the 
specific things. Is this like a braking system? Is it for 
carburetor adjustment?
    Mr. Barton. Oh, it varies. It really varies more by 
manufacturer than it does by specific components. You know, 
some of the manufacturers have worked very well to try to 
comply and some of them have paid lip service to it, but have 
not really been--in terms of what is the most difficult 
information to get, my understanding is it is not like you can 
get information on diagnosing a suspension problem, but you 
cannot get information diagnosing an emission problem. I am not 
led to be--it is kind of an across-the-board thing by 
manufacturer.
    Mr. Westmoreland. So it could be more GM or Ford or Mazda 
or Toyota?
    Mr. Barton. It is really more the--the U.S. manufacturers 
have been more cooperative than the non-U.S. manufacturers.
    Mr. Westmoreland. Thank you. Thank you, Madam Chairman.
    Chairwoman Musgrave. Mr. Lipinski, do you have a question?
    Mr. Barton. Is that how you always announce Mr. Lipinski's 
questions?
    Chairwoman Musgrave. He is a very important member.
    Mr. Barton. God comes into the hearing room and says now we 
hear from Mr. Lipinski.
    [Laughter.]
    Mr. Lipinski. Happens all the time.
    Thank you, Mr. Chairman, for coming here before our 
Committee. I just wanted to--just one thing I wanted to ask 
you. What has been the opposition to this legislation?
    Mr. Barton. The opposition?
    Mr. Lipinski. Why has there been--why has there been 
opposition? Why is there opposition to it? And what would your 
arguments be?
    Mr. Barton. Well, there is a natural tension between the 
certified dealers, which we all have in our district, and the 
independent auto repair groups. The dealers, you know, 
rightfully believe in their--you know, if you are a Ford dealer 
and somebody has a Ford, they ought to bring it to your shop to 
be repaired. And the manufacturers obviously give preference to 
their authorized dealers.
    So the tension is really between the independents and the 
authorized dealers of the original equipment manufacturers, and 
the manufacturers are not--they do not say they have no 
obligation to share this information, that would--they agree 
that they should. They just do not put as high a priority on 
getting the information in a timely fashion, and they do make 
the argument that some of what the independents want is 
proprietary.
    I think the proprietary argument is a specious argument. I 
do not--you know, we have got specific language in the bill 
that we are not trying to get proprietary information. If they 
testify later in the day, their argument is probably going to 
be they do not want to give away proprietary information, and 
that they have a right to give preference to their authorized 
dealers.
    I do not argue on the authorized dealers having some 
preference, but even having said that I still think the 
independent has a right to get the information in a timely 
fashion, and I do not think eight to 15 days meets the 
definition of timeliness.
    My young staffer had a little fender-bender last week, and 
he was without a vehicle for a week. That is not right. You 
know, you need to get it fixed and get going.
    Mr. Lipinski. Okay, thank you for your work on this, and 
thanks for coming before the Committee.
    Mr. Barton. My pleasure.
    Chairwoman Musgrave. Mr. Udall, do you have questions?
    Mr. Udall. Just one brief question, Madam Chair.
    Chairman Barton, thank you very much for coming today and I 
know you are very busy over in your Committee, and we 
appreciate you spending a few minutes with us.
    As I understood your testimony earlier, it sounded to me 
like you really wanted this voluntary system to work.
    Mr. Barton. That is true.
    Mr. Udall. And that you are saying you would only move the 
bill if this system could not be fixed and up and working and 
all of that.
    I am looking at the--the question I have is at the opposite 
side of that, is if you pass your bill, does that do away with 
the voluntary system? Do you view it as supplanting the 
voluntary system that is in place?
    Mr. Barton. Well, it would certainly enhance it. It would 
make some of these things mandatory. It would have an 
enforcement mechanism to it. I would prefer a voluntary 
agreement. I have been waiting three years. I mean, I started 
this process in 2001. They had the agreement in 2002. It is now 
2005, and again the dealers and the manufacturers say it is all 
there, it is working. The people have to use the system say, 
well, we can now get on the Internet or the phone and dial up, 
but we still cannot get the information.
    And to go back to Mr. Westmoreland's question, you really 
do not know what you are not going to get until you cannot get 
it, so they are very frustrated by this continuing hamstringing 
of this so-called voluntary system.
    Mr. Udall. So would you view it as supplementing the 
voluntary system or doing away with it completely, your bill?
    Mr. Barton. I think the straight answer would be it would 
replace it.
    Mr. Udall. Would replace it.
    Mr. Barton. Yes, sir.
    Mr. Udall. Thank you very much for your candor and 
appreciate having you here today.
    Mr. Barton. Sure.
    Mr. Udall. Thank you Madam Chair.
    Chairwoman Musgrave. Chairman Barton, has the legislation 
changed significantly since you first introduced it?
    Mr. Barton. We have tried to take the concerns of the 
manufacturers and the dealers on the proprietary nature, and 
the original bill had a mandatory enforcement provision that we 
have taken out. So we have really tried to work with the 
manufacturers and the dealers to address the problems that they 
have talked about in the testimony before my Committee.
    I think if we move the bill, at least some of the 
manufacturers would be supportive, and I think some of the 
dealers groups would be supportive.
    Chairwoman Musgrave. I believe Mr. Westmoreland has another 
question, and thank you for answering that one.
    Mr. Barton. Sure.
    Mr. Westmoreland. Mr. Chairman, kind of what Mr. Udall said 
as far as the voluntary and the mandatory. I have sat down with 
both groups and both groups have told me they were willing to 
sit down.
    Mr. Barton. They have been telling me that for four years.
    Mr. Westmoreland. So from talking to you it seems like they 
did not. Do you know--they have both been telling you the same 
thing, that they are willing to sit down and do something?
    Mr. Barton. And progress has been made. I do not want to 
mislead this Committee. The system works better today than it 
did four years ago. You can get information. Sometimes you can 
actually get it on a timely basis, but there are a lot of times 
that you cannot.
    Mr. Westmoreland. Do you think this may be like the 
settling of lawsuits on the courthouse steps, that it will be 
only after the dropping of a bill or whatever before an 
agreement can be reached where one side or the other side is 
willing to make concessions?
    Because evidently from talking to both groups, you know, 
they both say they are ready to sit down, and one says the 
other one will not, and the other one says the other one will 
not.
    Mr. Barton. I am sorry you have gotten in the middle of 
that. I thought I was the only one that had that problem.
    Mr. Westmoreland. Well, we share that enjoyment, and it has 
been fun meeting and hearing both sides of it.
    Mr. Barton. The difference is that my patience is about 
exhausted.
    Mr. Westmoreland. You have been dealing with it a lot 
longer than I have.
    Mr. Barton. Now that I Chair the Committee instead of just 
a Subcommittee--
    Mr. Westmoreland. Yes, sir.
    Mr. Barton. --I am very confident that if we cannot get an 
agreement, that we can move the bill. I mean, you folks know as 
much as I do about how the vote would be on the House floor, 
but we have got a lot of support from consumer groups and low-
income groups. A lot of members of the Black Caucus are either 
sponsors or willing to be sponsors. I think this bill on the 
floor probably gets 350 votes.
    It is a question if you are a Republican, do you believe in 
volunteerism or do you believe in another federal mandate? And 
I have been trying not to have to resort to a federal mandate. 
But if we do not get them together pretty quick, we are going 
to start moving the bill, and I have got a couple of senators 
have said they will introduce the bill in the Senate, so I 
think we could make this a law pretty quick if we had to.
    Mr. Westmoreland. Yes, sir. Well, I agree with you. I think 
volunteerism is certainly the approach. We hope it will take, 
and I really cannot get a good grasp on the magnitude of the 
problem, and if this is one person or two people or 100 people 
or whatever going without their car for three or four or five 
days. You know, I have been without mine that long, so I 
understand that.
    But you know, I hope that the magnitude of it is out there 
that would warrant something like this, and I am sure that you 
have heard all the evidence and feel comfortable that that is 
the case. And so, you know, it is something that we need to 
look into, and I appreciate the Chairman having this meeting so 
we can hear the different sides of it.
    Thank you very much.
    Mr. Barton. Thank you, sir.
    Chairwoman Musgrave. I just would ask you a couple more 
things. Are there specific things that would just remedy this 
situation? Could you give me any specifics of what you would 
like to see happen?
    Mr. Barton. You have to have a system that if the 
independent repair entity pays the appropriate amount of money, 
gets the software, gets the code words, gets all of the proper 
documentation so that they have access to the system, not 
trying to rip them off, not trying to get something for free, 
not trying to do something back door. But you go through all 
the certifications, and that can cost 30 to 40 - 50 thousand 
dollars. I mean, it is a non-trivial sum. But if you do that, 
and a vehicle comes into your shop, you should be able to 
access the system through the various websites that have been 
authorized with the appropriate software, and get an answer 
that day. Get an answer as soon as you get logged into the 
system; not get the answer--these endless do-loops that they 
just get the run-around and run-around, and you have provided 
all the certification and all the documentation, and you just 
end up--the system does not provide you the information.
    So my litmus test is, you know, that I do not think it has 
to be as fast as the dealer network. I respect that. You know, 
if I am authorized dealer of General Motors, I think I should 
have priority. I am okay on that.
    But if the dealer gets it instantaneously or gets it within 
30 minutes, the independent ought to be able to get it within a 
couple of hours, something like that. That is kind of where I 
am.
    Chairwoman Musgrave. Okay, anymore questions for the 
Chairman?
    Mr. Shuster is here.
    Mr. Barton. Is that ``Home run Shuster?''
    [Laughter.]
    Mr. Barton. You know he could have had an inside the park 
home run in the congressional baseball game.
    Mr. Shuster. Speedy Shuster. Well, I just want to tell you, 
Mr. Chairman, that was the first lay-down triple in the history 
of baseball.
    [Laughter]
    Mr. Shuster. Because after I hit it, I had to go in the 
dugout and lay down.
    [Laughter.]
    Mr. Barton. Well, you know, I saw you coming around second 
base. The ball is still out at the outfield fence, but it did 
not look to me like you had the steam to make it to home.
    Mr. Shuster. I did not. I did not.
    Mr. Barton. But you did hit it far, that is the good news.
    Mr. Shuster. That is what counts, and Putnam scored.
    Mr. Barton. He did. He did.
    Chairwoman Musgrave. Mr. Shuster, after hearing about your 
personal physical condition, I am wondering if you have any 
questions.
    [Laughter.]
    Mr. Shuster. I think I bring a perspective to this that 
other members may not. My family had a tire business which was 
a repair shop. I went to work for the Goodyear Tire and Rubber 
Company in a repair shop, and then I owned an auto dealership 
for 13 years.
    My concern is that we are going to set up a new bureaucracy 
in the federal level, and I do not know that we already have 
not solved our problem with the industry and what they are 
doing, because I know we were able to get that information, 
maybe not as quickly--when I was in the repair business--as 
quickly as a dealer does.
    But on the other side of that coin the dealers spend a lot 
of money, and the manufacturers spend a lot of money developing 
these things, and the notion that private car owners do not 
have a choice, I do not think is accurate because they do have 
a choice. There is six Chevy dealerships within an hour of my 
house, or five Chrysler dealerships, so I think there is choice 
out there, and I know from experience that the independent 
garage can get that information, maybe not as quickly, but on 
that same point.
    I do not know that they have spent the money and have the 
investment that a dealer has that they should get it.
    Mr. Barton. You missed some of my opening statement.
    Mr. Shuster. I apologize.
    Mr. Barton. I do not--you do not have to apologize. It was 
not that good of an opening statement, you know.
    But I am not quibbling with the dealer having access to the 
information instantaneously or as quickly as possible. You 
know, if your care is under warranty, most people are going to 
take it to the dealer.
    It is these cars that are secondhand, used cars that are 
not under warranty, a moderate income family does not have the 
means to take it into the authorized dealer because of the 
higher labor cost and the overhead cost and all of that, so 
they take it to an independent repair shop.
    The independent repair shop, if they paying the licensing 
fee, if they pay for the software, if they get the proper code 
words and passwords and PIN numbers, that independent repair 
shop, in my opinion, as a right to get the information as long 
as it is nonproprietary in a timely fashion. It does not have 
to be--if the Chevrolet dealer can get it in 15 minutes, I do 
not think the independent ought to get it in 15 minutes, but 
they ought to get it some time that day.
    Mr. Shuster. Right.
    Mr. Barton. They ought to be able to get it and get the 
part and repair the vehicle, and diagnose the problem, and get 
it back to the owner. And again, I have had the laptop computer 
set up in my office, and watched them try to get access to the 
information, and they finally get to a screen, and it just--it 
just dead ends. It is just kind of the straight line on the 
heart monitor. It just is not going to happen.
    Mr. Shuster. And I would say too coming from a dealer's 
point of view, sometimes the dealer does not get the 
information as quickly as we should for a number of different 
reasons.
    But still I wonder too, I know that CARE, the Coalition for 
Automotive Repair Equality, I am not--I think I know who they 
are. My concern is is that these huge automotive parts 
companies that--what they are doing by trying to get this 
information is to reverse engineer these parts, and be able to 
get these parts cheaper, and take that--take a lot of that 
business away from dealers.
    Mr. Barton. But the bill specifically says that is illegal. 
We are not trying to do that. We are not trying to take the 
best engineering of Detroit, and as you put it, reverse 
engineering. That is not the concept that we are attempting to 
get.
    What we are trying to do--I mean, everybody in everybody's 
district, you have got a lot of authorized dealerships, and you 
also have a lot of independent repair shops, and that has built 
up over 100 years.
    Mr. Shuster. Right.
    Mr. Barton. The technology has changed. It used to be--I am 
old enough that I actually could work on my cars. You know, I 
could actually go out and change the spark plugs, and adjust 
the timing, and change the timing belt, and put in new rings 
and all this kind of stuff.
    Now when the car stops you have to plug it into a computer, 
okay, and the computer is going to tell you what the problem 
is, and what I am saying is the independent shop, if they are 
willing to make the investment, needs to have access to that 
same diagnostic ability and be able to pinpoint the problem and 
get the part and get the car repaired. If we can work that out 
on a voluntary basis, fine.
    I have been trying for four years to get a voluntary 
agreement that actually works. The people on the manufacturing 
and the dealer side say that it works. The people on the 
receiving end say it does not work.
    Mr. Shuster. Well, I--and again, with all due respect to 
the Chairman, I think that that information is out there. It is 
available. It is not always as smooth and as easy as it could 
be, but as a former dealer, and there were times when we could 
not get that information as quickly as we wanted to, and I 
would just caution us against the federal government going out 
there and doing something, setting up a new bureaucracy, trying 
to force things down peoples' throats.
    And I think that you are right that the manufacturers, and 
I think they do, they want--they have customers out there that 
do not always want to go to the dealers for various reasons 
that you have mentioned, and they want them to have other 
opportunities. So I hope we can do this without legislation.
    Mr. Barton. All right. I have a feeling in the next week or 
so some of these independent repair shops may contact you.
    Mr. Shuster. Well, I look forward--
    Mr. Barton. We may let them show you their system.
    Mr. Shuster. I look forward to that. Thank you.
    Mr. Barton. Thank you, sir.
    Chairwoman Musgrave. Thank you, Mr. Chairman. We appreciate 
you being here today.
    Mr. Barton. I appreciate the opportunity.
    Chairwoman Musgrave. At this time I would like the second 
panel to come up. Mr. Westmoreland mentioned that he had 
someone here from Georgia today. Well, I have someone here from 
Fort Collins, Colorado. So the second panel will come up, 
please. Mr. Houska, Fred Bordoff, Eddie Ehlert, Aaron Lowe, 
John Cabaniss and Kathleen Marvaso.
    [Pause.]
    Chairwoman Musgrave. Welcome all of you, and when you speak 
if you would pull the microphone a little closer to you. The 
acoustics are not that good in this beautiful room, but then we 
can all hear you.
    Mr. Houska, welcome. Proud to have a Coloradan here today 
from my district, and we are looking forward to hearing from 
you.
    We will adhere to the five-minute rule, so if you will 
watch the light, and that will give you an indication of when 
you should sum up. Thank you. Go ahead.

     STATEMENT OF DENNIS HOUSKA, HOUSKA AUTOMOTIVE SERVICE

    Mr. Houska. Madam Chairman, members of the Subcommittee, I 
am Dennis Houska, President of Houska Automotive Services Inc. 
located in Fort Collins, Colorado. Thank you for the 
opportunity to address you today on an issue that is vital to 
my business.
    My father started our auto repair over 50 years ago in a 
two small bay garage. I am the second generation in the 
business and my son will be the third. I have grown up in and 
spent my whole life in the auto repair business. Our shop has 
grown up over the years to be a 24-bay facility that works on 
all types of vehicles.
    Houska Automotive now has 25 employees. We pride ourselves 
in being a one-stop auto repair for all of our customers' 
needs. We have built our base on loyal customers because of our 
quality work, convenience, and competitive price. But, even 
more, based on trust.
    Our shop has many business affiliations. We are a AAA 
Preferred Auto Repair, AC Delco Service Center, Bosch Repair 
Center, and a member of the Better Business Bureau, and a 
member of the NFIB.
    I have been a member of ASA for many years. Even though I 
am a member of ASA, I strongly disagree with their position on 
this bill. For some reason, they do not believe that there is 
that bad of a problem in getting timely information, but my 
years of experience has told me otherwise.
    We are also a NAPA Auto Care Center since the 
implementation of the program. To be a NAPA Auto Care Center, 
you must employ ASE certified technicians, have an ongoing 
training program and adhere to the NAPA's code of ethics.
    I am also a member of the Bottom Line Impact Group. This is 
a collection of independent auto repair businesses from around 
the country and we get together to discuss automotive 
management problems and the future of our industry.
    We have technicians who are specialized in the different 
areas and makes of automobiles. Our technicians are ASE 
certified--most are master techs with an L1 certification. Many 
of our employees have been factory trained in different makes 
of cars. We have an ongoing education through classes offered 
by NAPA, AC Delco, Automotive Training Groups, Car Quest, 
Bosch, our state education programs, and even through ASA.
    We also have an on-line and N.I.A.T. self-study courses 
available. Several of our employees have received the Top Tech 
Award for our community for their commitment to further their 
education. Each employee is required to continue his or her 
education every year.
    Being an independent auto repair business owner has great 
rewards and sometimes great challenges. But one challenge that 
I believe is unnecessary is the challenge of accessing all the 
information in all the model lines of all the different 
manufacturers. This challenge can be overcome by the passage of 
the Motor Vehicle Owner's Right to Repair Act.
    There is no one diagnostic tool that gives us enough 
information for all the makes. Several years ago we made the 
decision to invest in the scan tools of the different 
manufacturers, at a great expense to us. If the information was 
accessible for the tool manufacturers, they would be able to 
develop and produce one tool that could access and reprogram 
all the different makes of cars, saving us an our customers a 
great deal of added expense.
    We have purchased the Snap-on scanner, the Master Tec, the 
Tec 2, the Val Tec, the DRB-3, Pro Link, Genisus, and NGS, just 
many other manufacturers' tools. Not only do we have the 
initial cost of each tool, but also the cost of the year 
update, but another problem is that the manufacturers are also 
always changing the scan tools, so every few years we have to 
repurchase an additional scan tool for the make.
    But this is not the main reason I support the bill. Tools 
are part of the challenge no doubt, but the main challenge and 
the one I am left--if left uncorrected could put me and my 
business--put me out of business information.
    We subscribe to several information systems. We have 
Alldata, On-Demand, IATN, and Identix. We also use service of 
hot lines, which we can call when we need more information. 
These are great resources, but there are times when we need 
more precise information that is absolutely necessary to 
properly diagnose and repair the vehicle.
    Chairwoman Musgrave. Okay, your time has expired, and 
perhaps in questioning you will get an opportunity to say some 
more things. Thank you.
    Mr. Houska. Thank you.
    [Mr. Houska's testimony may be found in the appendix.]
    Chairwoman Musgrave. Okay, our next witness is Mr. Fred 
Bordoff.

 STATEMENT OF FRED BORDOFF, SERVICE STATION DEALERS ASSOCIATION

    Mr. Bordoff. Good afternoon. My name is Fred Bordoff. I am 
Vice President of the Service Station Dealers of America and 
Allied Trades, known as SSDA-At. SSDA-AT represents over 15,000 
independently owned service stations and repair facilities in 
over 50 states, either through direct membership or through 
affiliation with affiliated state associations.
    On behalf of our members, I want to thank the Chairman and 
Members of the Subcommittee for the opportunity to present our 
views on the challenges and difficulties encountered by the 
independent auto repair technicians as a result of the refusal 
of the auto manufacturers to share with us the same technical 
information furnished to their own dealers.
    The direct result is that the independent technician is not 
able to perform repairs on these automobiles. In instances when 
manufacturers do grant access to information and programs, it 
is done at costs which are often prohibitively high to the 
small independent auto repair shops, thus effectively causing 
them to be unable to render these services, and forcing their 
customers to have repairs done at auto dealerships.
    The complex computerized systems of the modern automobile 
render it essential to have the proper information and 
training.
    I am the President of the New York Center for Automotive 
Technology, an independent general repair shop located in 
Queens, New York. Because my facility is engaged to perform 
repairs for a major dealership in New York, which sells great 
numbers of used cars and which owns several new car franchises, 
I am granted some access to information which allows us to 
perform repairs, but in general the average independent 
technician often cannot tend to a customer's repair needs. I 
will offer a few examples to illustrate the problem.
    A Volvo owner complains that the driver's side window does 
not go down. After testing, the diagnosis is a bad window 
switch. A new switch is purchased from Volvo and installed. The 
new switch does not work. Further investigation reveals that 
the switch has to be programmed by the Volvo dealer. The car 
then has to go to Volvo to complete the repair. This is likely 
to cause delay and frustration to the customer, who will resort 
to Volvo services in the future instead of the independent 
facility.
    Another example is that of a motorist driving a BMW, who 
experiences poor performance on the road, and then sees the 
service engine light go on. He or she pulls into a convenient 
diagnostic facility. It is determined that the throttle body is 
at fault. A new throttle body is purchased from the local BMW 
dealership and installed. The car will not even start now 
without being programmed by at the BMW dealership. Imagine the 
reaction of that customer who drive on a car and has to see it 
towed out.
    On many of today's cars, if the battery goes dead, the 
radio loses its memory. After a new battery is installed, it is 
discovered that the radio now does not operate. The radio now 
has to be coded by a dealership service facility since they are 
the ones with access to the code. Obtaining the radio code 
takes between one and four minutes, depending on the speed of 
your Internet access. Most dealership service facilities charge 
one hour labor for this service. Is there any wonder why they 
want to keep this information to themselves?
    Manufacturers have two information systems, and for a fee, 
they will allow independent repair shops to access the 
Technician Information Service. The other system is the Dealer 
Information System. I can tell you that they are not the same 
at all. The Dealer Information System is more complete and 
easier to use. The dealership service facilities also have 
access to tech support, which the independent repair facilities 
do not, again, leaving the independent at a disadvantage.
    With companies like Alldata and Mitchell supplying 
information to the independent shop at a reasonable cost, it is 
the same as the Technician Information System that the 
manufacturer also supplies to the independent. Another 
difficulty with Alldata and Mitchell is the lag between getting 
information, publishing it, and distributing it to the shops. 
There can be a three to six month lag by the time the shop gets 
the information.
    While access to information is a problem, the greater issue 
is that of the programming ability, or lack thereof, available 
to the independents. Without it, the entire repair at the 
independent facility is viewed as useless by the customer.
    Last year, our facility spent in excess of $65,000 on 
manufacturer's specific scanners and we still have difficulties 
with some cars. These costs are not something that small 
independent repair shops can insure as a cost of doing 
business, and keep costs down to the motorist.
    Chairwoman Musgrave. Your time has expired. Thank you for 
your testimony.
    [Mr. Bordoff's testimony may be found in the appendix.]
    Chairwoman Musgrave. Our next witness is Eddie Ehlert from 
Chamblee, Georgia. Welcome to the Committee. And if you will 
pull that microphone closer, we will be able to hear you very 
much. Thank you.

           STATEMENT OF EDDIE EHLERT, MAZDONLY, LTD.

    Mr. Ehlert. Good afternoon, Chairman Musgrave, Members of 
the Subcommittee. My name is Eddie Ehlert. I am President and 
owner of Mazdonly, Limited in Chamblee, Georgia. I have been in 
the automotive repair industry since 1977, and have owned my 
own repair facility for 20 years. I am immediate past president 
of the Automotive Service Association of Georgia and currently 
serve on their board of directors.
    I am here today representing the Automotive Service 
Association, ASA, our national association. Our association 
represents 13,000 independent repair facilities nationwide 
employing 65,000 technicians in all 50 states. ASA is the 
oldest and largest trade organization in the automotive 
industry with the distinction of serving only those businesses 
that perform service and repairs for the motoring public.
    Independent repairs typically receive in their shops those 
cars coming out of warranty. We repair approximately 75 percent 
of all cars out of warranty. Franchised new car dealers repair 
approximately 25 percent. This structure of the repair 
marketplace is stable now and for the foreseeable future.
    The ASA testified before the House Commerce Committee's 
Subcommittee on Commerce, Trade and Consumer Protection on 
September 22, 2004, on the Right to Repair issue. Our message 
today mirrors our testimony of 2004. The ASA-Automaker 
Agreement for service information, tool, tool information and 
training is working.
    I want to make three points this afternoon.
    There is a viable industry solution already in place for 
the service information. Service information opportunities have 
expanded under the ASA-Automaker Agreement, and independent 
repairers want less federal government bureaucracy in their 
businesses, not more.
    The 1990 Clean Air Act protected independent repairers in 
the area of emissions service information. Unfortunately, it 
took the United States Environmental Protection Agency 13 years 
to develop a regulation that it could enforce with the 
automakers. The act did not give the authority to EPA in the 
area of non-emissions information. This is the area of 
contention.
    After a U.S. Senate Commerce Committee hearing in July of 
2002, members in the House and Senate ask ASA and the 
automakers to try to resolve this issue prior to the next 
Congress.
    The ASA and the automakers were successful in signing a 
voluntary, industry service information agreement in September 
of 2002. This agreement ensured independent repairers the same 
service, tool, tool information and training provided 
franchised new car dealers, including both emissions and non-
emissions information.
    With 451 million repairs handled by independent repairers 
each year, a process had to be in place for allowing any issues 
or complaints that might arise. An industry organization, the 
National Automotive Service Task Force, NASTF, is in place to 
address consumer, technician or shop owner complaints relative 
to service information.
    The NASTF is an industry success sorry. Repairers, 
automakers, new car dealers, parts distributors, and 
information providers work together in face to face meetings, 
conference calls, and via the Internet to resolve industry 
issues. Of the 451 million repairs in 2004, the NASTF had 48 
complaints, less than a fraction of one percent of all repairs. 
Of those 48 complaints, 48 were resolved in 2004.
    In March of this year, ASA and the National Automobile 
Dealers Associations, NADA, sent a letter to every member of 
the U.S. House of Representatives. We are the two largest trade 
associations representing the repair industry segments in the 
United States, independent repairers and franchised new car 
dealers, respectively. Our association stated in this joint 
letter that, ``NADA and ASA want to make perfectly clear to all 
parties, and most importantly to their customers, that they can 
repair vehicles because the service information and diagnostic 
tools needed are available to them in the marketplace.''
    Since the more complex vehicles have entered the repair 
marketplace, information availability has expanded rather than 
contracted for independent repairers. The Clean Air Act 
amendments directed EPA to regulate automaker websites for 
emissions service information.
    The ASA-Automaker Agreement expanded this to non-emission 
service information, tools, and tool information and training. 
But in actuality, day by day, independent repairers still go to 
the same source for service information they have gone to for 
many years, third party information providers.
    Prior to the 1990 Clean Air Act amendments and prior to EPA 
regulations, prior to the ASA-Automaker Agreement, third party 
information providers were available such as Alldata, Mitchell 
I and Identifies for their service information needs.
    For those shops choosing not to directly access the 
automaker websites, these companies still provide service 
information to the independent repair technician.
    Chairwoman Musgrave. The time has expired. Thank you very 
much for your testimony.
    Chairwoman Musgrave. Our next witness is Aaron Lowe, Vice 
President, Government Affairs, Automotive Aftermarket Industry 
Association. Welcome.

   STATEMENT OF AARON LOWE, AUTOMOTIVE AFTERMARKET INDUSTRY 
                          ASSOCIATION

    Mr. Lowe. Thank you. Good afternoon. My name is Aaron Lowe 
and I am vice president of government affairs to the Automotive 
Aftermarket Industry Association.
    The AAIA is a Bethesda-based trade association with more 
than 7,566 member companies and affiliates that manufacture, 
distribute and sell motor vehicle parts and accessors. AAIA 
represents more than 54,000 parts stores and repair shops 
nationwide. Many of these shops are family-owned operations and 
have been in business for generations.
    We are placed to be here to discuss the Motor Vehicle 
Owner's Right to Repair Act that was introduced by 
Representative Barton. Passage of this legislation is critical 
not only to the thousands of small businesses that comprise the 
automotive repair industry, but also their customers who depend 
on local repair shops to keep their vehicles operating safely, 
cleanly and dependably.
    I will not go over the history of this legislation since I 
think you made some really good points, but as you said 
earlier, the bill was brought about because of the expansion of 
the use of computers beyond just emissions-related items, to 
brakes, air bags, entertainment systems to anti-theft systems.
    The computer chips control virtually every aspect of the 
vehicle. No longer is it just enough to have information on 
emissions-related items, you need information on computers 
impacting all aspects of the vehicle.
    A little over one year following introduction of the Right 
to Repair bill in 2001, the car companies issued a letter 
promising to make emissions and non-emissions-related 
information available by August 31, 2003.
    Clearly, this letter was a major step forward for the 
aftermarket in that it was the first time, short of regulation, 
the manufacturers had ever promised to make any information 
available to our industry. However, the promises of the car 
companies, while progress, do not go far enough to either 
resolve our current issues or ensure a future of the 
competitive repair market.
    Our central issue with the letter is that it is not 
enforceable. Should any of the car companies determine to walk 
away from it, there is nothing the industry could do or the car 
companies to hold them to their promise.
    Today, you have heard only a few of the specific instances 
where critical information is being withheld by the 
manufacturers. These examples and others that have been brought 
to our attention call into serious question the car company 
performance in meeting their own promises.
    A recent survey of repair shops performed by the Tarrance 
Group found that 59 percent of respondent had problems getting 
access to repair information and tools needed for repairs. 
Sixty-seven percent reported that they had been forced to send 
their vehicle back to the dealer. Ninety-three percent of the 
respondents that said they wanted the Right to Repair bill were 
ASA members.
    Our further concern is the National Automotive Service Task 
Force that was cited in the letter as the enforcement entity 
for the promise. By nearly any objective measure, NASTF is an 
enforcement group, but simply a clearinghouse for information 
requests from the technicians that are routed to the 
responsible car company. Once there, it is up to the car 
company to decide how to answer.
    NASTF as a entity does not force nor negotiate resolution 
on behalf of the independent technician. And in April 22, 2005, 
letter to Kirland & Ellis that represents the vehicle 
manufacturers, FTC stated for a third party review system to be 
effective they must be impartial and objective, be public, and 
apply standards consistently.
    Clearly, NASTF is neither impartial nor objectives since it 
is operated and controlled by the vehicle manufacturers.
    I have to add that because of the time it takes, which is 
eight to 15 days by NASTF's own testimony at the Energy and 
Commerce Committee, most independent repair shops cannot wait 
that long to get the information to get their customers out the 
door.
    The bottom line is that while promises helped move the ball 
forward, our industry cannot rest its future on them without 
some hammer to ensure everyone stays at the table. Car 
companies have racked up a long track record of withholding 
needed information and tools, and they make too much money in 
the aftermarket to accept anything else.
    According to the NADA, National Automotive Dealers 
Associations, even though dealership parts and service 
departments comprise just 11.8 percent of typical dealer's 
total sales, it contributes 48 percent of total operating 
profit. New car sells make up 60 percent of total sales, but 
only contribute 35 percent of total profit.
    Our fear is that the marketing and competitive interests of 
the manufacturers will override their current promise to make 
information and tools available should the threat of 
legislation disappear.
    The Right to Repair legislation was revised this year, but 
the goal is the came--ensure car companies keep their promises 
that they made in their letter, to make all information 
available.
    Over the past couple of months we have worked hard with the 
Federal Trade Commission to make sure it is easily implemented 
and fair to the car company. Particularly important, the newly 
drafted bill provides significant protection to the car 
companies trade secrets.
    During last year's discussions, the car companies thought 
that this is was parts bill because it would require the use of 
trade secrets. I want to be clear that it has never been our 
intention to have any parts information, and we have provided 
clarification in the current bill to make sure that is true. 
Only information that they provide to the new car dealers must 
be made available to the independent aftermarket.
    We hope that this legislation will not add to the 
regulatory burden but just simply expand what has already been 
done in the emissions-related information by EPA be provided to 
the independent aftermarket, and that the non-emissions-related 
would also be included on those websites.
    Thank you.
    [Mr. Lowe's testimony may be found in the appendix.]
    Chairwoman Musgrave. Thank you. Our next witness is John 
Cabaniss, Jr. of the National Auto Service Task Force, and 
welcome to the Committee.

      STATEMENT OF JOHN M. CABANISS, JR., ASSOCIATION OF 
          INTERNATIONAL AUTOMOBILE MANUFACTURERS, INC.

    Mr. Cabaniss. Thank you. My name is John Cabaniss. I am 
testifying for the Association of International Automobile 
Manufacturers.
    I have been with AIAM for 10 years. Prior to that I worked 
for EPA for 15 years, and I began my experience working on cars 
in my dad's auto shop when I was 11 years old. For five years, 
I have been the chairman of the National Automotive Service 
Task Force.
    The U.S. auto industry is highly competitive, more so today 
than ever before. About 70 to 80 percent of all non-warranty 
vehicle service is performed in independent shops. Because of 
this, automakers must respect the aftermarket industry as their 
partners in ensuring customer satisfaction and protecting brand 
loyalty. To do otherwise would be contrary to their own 
interests.
    Let us review some of the proponent's claims.
    First, the proponents claim modern vehicle technology is 
limiting consumers' choice for vehicle repair and service. The 
reality is consumers continue to have the choice of where to 
get their vehicles serviced and repaired. Independent shops 
continue to provide quality services at competitive prices, 
performing over 400 million successful repairs annually.
    Internet and e-commerce technologies are being used today 
to provide these shops with the latest technical information 
faster and cheaper than ever before.
    Second, the proponents claim automaker service websites do 
not include complete information. The reality is automakers are 
doing all that they reasonably can to make the same service 
information, training materials and factory tools available to 
independent shops as to dealers.
    All automakers have service websites containing service and 
training information available 24 hours a day, seven days a 
week.
    Is every manufacturer's information perfect? Of course not. 
There are millions of data points and from time to time 
something will fall through cracks. Like any complex data 
network, improvements are continually being made to benefit 
dealers and independents alike.
    Third, proponents claim automaker service websites are too 
expensive. The reality is nearly all automaker websites are 
available for a period of 24 to 72 hours for 10 to 20 dollars. 
Frequent users have the option for monthly or longer 
subscriptions, but obviously they have to consider their own 
business case whether to take advantage of that.
    Fourth, proponents claim the voluntary approach provides no 
enforcement to ensure continued good faith of automakers.
    The reality is the continued good faith of automakers is 
ensured because the marketplace requires it. Automakers must 
ensure that customers can get their vehicles repaired at the 
shop of their choice. Due to fierce competition, automakers 
cannot afford any bad press that would result in not providing 
full support to customers, dealers, and independent shops.
    Fifth, proponents claim using the NASTF complaint process 
takes too long.
    The reality is in virtually all cases shops are getting the 
information they need, when they need it, on a 24/7 basis from 
either automaker websites or independent providers. In 2004, 
NASTF received 48 complaints. This is obviously a very small 
number compared to the 400 plus million vehicle repairs 
conducted annually.
    Most NASTF complaints are handled quickly, but a few take 
longer because they require updating documents or making tool 
changes. Automakers strive for continuous improvements of their 
websites, just as they do their vehicles.
    Sixth, proponents claim legislation and regulation are 
needed to ensure automakers continue to provide information and 
address the problems they have identified.
    The reality is the types of problems identified by 
proponents, such as the cost of accessing sites, differences in 
sites, occasional content errors, and lack of enforcement, are 
not issues which will be effectively addressed in regulations 
by the FTC or any other agency.
    The current cost structure in websites are based on EPA's 
current regulations, and approved by EPA, and there is no 
reason to believe the FTC would conclude any significant 
changes are needed, and federal regulatory processes are laden 
with procedural steps that do not lend themselves to addressing 
problems quickly.
    As noted by the FTC in a recent letter to Representative 
Dingell, self-regulatory programs are often the best ways to 
address matters. This is especially true in a dynamic area such 
as information technology. The only thing that federal 
regulation would clearly do is slow down the process and delay 
further progress. This outcome benefits no one, not the service 
industry, not the automakers, not consumers.
    In conclusion, automakers remain committed to the National 
Automotive Service Task Force. We welcome the participation of 
all parties to improve and expand this voluntary process. 
Bringing everyone's efforts and resource to bear on producing 
results, not rhetoric, can only improve the process.
    If any members of the Subcommittee are contacted by 
constituents with any type of service information, question or 
problem, please contact me so we can address the issue.
    For the record, we oppose H.R. 2048 because we believe it 
is unnecessary and counterproductive. We acknowledge that there 
have been some modifications to this year's bill, but we 
continue to have concerns about the protection of intellectual 
property and the potential for excess litigation.
    Thanks for the opportunity to address the Subcommittee.
    [Mr. Cabaniss' testimony may be found in the appendix.]
    Chairwoman Musgrave. Thank you. Our final witness is 
Kathleen Marvaso. Welcome to the Committee.

               STATEMENT OF KATHLEEN MARVASO, AAA

    Ms. Marvaso. Thank you. Good afternoon, Madam Chair and 
Members of the Subcommittee. I am pleased to be here today to 
testify on behalf of AAA, and provide testimony in support of 
the Right to Repair bill.
    I am Kathleen Marvaso, the managing director of AAA's 
Washington office, where we advocate a wide range of consumer 
and safety issues that affect the traveling public's safety and 
mobility. AAA has represented the interests of car owners for 
more than 100 years, now serving more than 48 million members, 
25 percent of all U.S. households.
    The AAA has a strong interest in the Right to Repair 
legislation because we believe it is necessary to ensure our 
members' safety, and their access to high quality, convenient 
and competitively-priced auto repair.
    The AAA's goal has always been to ensure that manufacturers 
make service and training information and the appropriate 
diagnostic tools available to any repair facility, not just 
those in their franchise dealer network.
    Ideally, this should occur voluntarily. Yet our members and 
independent repair facilities in our approved auto repair 
network continue to tell us that there are many instances where 
technicians do not have the information or tools they need to 
fix today's vehicles, and as a result consumers are denied 
choice among qualified repair options. Often they are 
inconvenienced, and some AAA members are left with no choice 
but to drive their vehicle long distances for repairs.
    Too often today's consumers are essentially denied 
something that they buy when they drive off the lot with a new 
car--access to the data necessary to get that vehicle repaired.
    So AAA supports the Right to Repair bill for three 
important reasons: consumer choice, vehicle safety, and the 
right of car owners to access the data generated by their 
vehicle.
    Despite some positive steps towards making the information 
available to independent repair facilities, it is AAA's 
understanding that much of what is provided is incomplete, it 
is difficult to find, or it is prohibitively expensive. So 
instead of fixing the problems themselves, repair technicians 
are forced to put customers back out on the road searching for 
a dealer shop that may not have an available appointment, it 
may not be nearby, and it may not even be open.
    Many of our AAA members prefer dealer shops, but many also 
choose to use the services of independents, and AAA believes 
that our members deserve and need choice to ensure good quality 
service, and competitive prices in auto repair. This can only 
occur if all facilities have access to the same information and 
tools.
    Technology has made the vehicles that we drive smarter. 
More than 80 percent of the systems on some cars are monitored 
or controlled by a computer. They tell us about the need for an 
oil change, trouble with an oxygen sensor, problems with the 
brakes, and even if our tire pressure is too low before there 
is a problem or a critical safety breakdown.
    It makes sense that information necessary to diagnose and 
repair any of these problems should be available to all repair 
technicians. But these days it is hard to mention this issue 
without someone telling you of their own experience with a 
repair problem. Depending on the problem, whether it involves a 
critical safety feature like brakes, or the supplemental 
restraint system, or a comfort features like climate control, 
at best these problems amount to an inconvenience, and at 
worst, there are a serious safety issue. Regardless, they 
should not happen.
    The AAA believes that when you drive off the lot with your 
car you own more than just the vehicle. You own the information 
necessary to have it repaired by a trusted service advisor of 
your choice, whether that is an independent or a dealer.
    Opponents of this legislation claim that an information not 
released to the independent repair shops is withheld to protect 
intellectual property or design secrets. AAA members do not 
want access to any of that. They want their car fixed.
    Simply put, this legislation is about putting common sense 
into the repair process, ensuring that customers get a choice 
in auto repair, whether they choose a dealership or an 
independent.
    Thank you for the opportunity to share AAA's views on this 
subject.
    [Ms. Marvaso's testimony may be found in the appendix.]
    Chairwoman Musgrave. Thank you very much for your 
testimony.
    Mr. Shuster, do you have any questions for our witnesses?
    Mr. Shuster. Yes, I do.
    First, I want to start off again, I have spent probably the 
better part of 30 years of my life involved with auto repair, 
and in an auto dealership selling cars, around cars. I also 
want full disclosure. I could not fix a car if my life depended 
on it. But I have been around and I have been managing 
businesses that have done that some time.
    I also want to say that Mr. Houska and Mr. Bordoff, I have 
the greatest respect for what you do. I know how difficult it 
is. You know, I have been there when a trained mechanic or we 
thought it was a trained mechanic, we thought the part was 
there, and the car did not get fixed, and I have got a customer 
yelling at me why is my car not fixed. You guy do not know what 
you are doing.
    I mean, I have been there, and I feel your pain, and I have 
felt it.
    I do have a concern, though, about this legislation. I 
think it is the wrong way to go. I think it--as independent 
business people, as you are, as I was, small business people, 
we do not want the federal government sticking their nose into 
our business, because this just leads from one thing to the 
next.
    I mean, what is to stop us from the next thing saying, 
okay, if you want to do these repairs, you have got to buy 
every Chrysler, every General Motors, every Ford tool and 
diagnostic piece of equipment out there.
    I mean, it is a huge expense, and I do not think either of 
you want that to happen. You probably do not have all of those 
tools, because I had quite a few of those tools, and lots of 
times we did not use those tools, but we still had to buy them.
    So I am concerned about this for that reason. What is the 
next steps?
    Also, when we look at the market, 75 percent of the repairs 
are being done today by independent repair shops. It does not 
seem to me that the auto dealers have a monopoly on that 
business.
    Also, I saw where--I know that there is claims that there 
is a lot of people complaining about the dealership not giving 
up the information, they cannot get their cars fixed at your 
place or the information is not fast enough. But I know the 
task force, the numbers I have, there is only about one percent 
complaints coming in from repair shops that say they cannot get 
the information.
    So to get to my question, who makes up CARE? I think know. 
I think is it NAPA and Auto Zone and big parts manufacturers 
and distributors like that. Is that correct or is that not 
correct? Who makes up CARE? I know there is a lot of small, 
independent dealers.
    Mr. Lowe, maybe you can. I know AAIA, that is who you folks 
are, is that correct?
    Mr. Lowe. Yes.
    Mr. Shuster. And are you part of CARE?
    Mr. Lowe. We work with CARE on the legislation. We all 
support the bill. We have some of the same members.
    Mr. Shuster. Okay.
    Mr. Lowe. CARE is one group who is supporting the bill. 
They are made up of--you know, as you said, NAPA, and Auto 
Zone, and companies like that. We are also comprised of some of 
the same companies. We also have other service facility members 
of AAIA. We have parts manufacturers, distributors.
    So, I mean, CARE is just one group that represents this 
bill, and is working on it along with a lot of other groups 
that are supporting this legislation.
    If you look at the range of support for the bill, it covers 
a wide range of the aftermarket.
    And to address your other issue about your concern about 
the federal bureaucracy, none of my members want to see federal 
bureaucracy more than we have to. Our members are staunchly 
anti-regulatory in nature. But we have had regulations in place 
by the Environmental Protection Agency for years on service 
information, so we have already developed an infrastructure for 
making that information available and for how the regulation 
works.
    There has never been any challenges on intellectual 
property as part of the implementation of that legislation. So 
we already have that in place. And I think it is important to 
remember that we did not get as far as we have with information 
because of the market forces. It is because of the information 
regulations in the Clean Air Act, and then the threat of this 
legislation coming into place that really moved us as far as we 
have come on service information.
    So we would love to be able to not have to deal with 
legislation. We are hoping that when the legislation passes we 
will never have to have regulatory enforcement action; that the 
car companies will come and work with us to get the information 
out there. But we do not feel comfortable without having some 
kind of hammer to make sure that they stay at the table, and 
work toward getting information to the industry.

    Mr. Shuster. But again, the information I have is that they 
are working with you. It is not perfect. It is never going to 
be perfect because of the nature of what we do is fix cars and 
it is a very difficult thing to do at times, but it is not out 
there.
    But I still see things that raise a red flag to me when you 
are out there touting to Wall Street that this legislation may 
pass. That sounds to me like you are looking for the investors 
to invest in your stock because of government action. I do not 
have the actual clipping of the Wall Street report saying you 
are touting this act coming forward. That is going to be of 
great benefit to the NAPA, the NAPA franchisees, the Auto Zones 
and those big companies.
    I look at the market and I see you have got 75 percent of 
the businesses coming your way now. Again, I do not think this 
is the right way to go. I think that go back and work, get in 
there with the auto manufacturers, and sit down with them, and 
let us see it work in the private sector. Let us not see the 
government pass a legislation that I think in the end is going 
to come back to haunt all of us.
    Chairwoman Musgrave. The time has expired.
    Mr. Lipinski, do you have questions?
    Mr. Lipinski. Yes, Madam Chairman.
    Chairwoman Musgrave. You are welcome.
    Mr. Lipinski. Thank you, and thank all of you for your 
testimony here today.
    It seems like there are three major issues of contention. 
One is how well would the voluntary system--how well is the 
voluntary system working. The second one is will there be 
intellectual property concerns, should there be intellectual 
property concerns with a mandatory system, such as the one in 
this bill. And the third one is will we have problems in the 
interim? If we pass this, and make it mandatory, what would 
happen to the voluntary system?
    So let me just start with the first one, that is maybe all 
that I really get to here, but it is probably the most 
important one because we heard Mr. Ehlert state that there are 
48 complaints to NASTF last year. All of them were resolved. 
Only 48 complaints, and NASTF reports more than a 99 percent 
rate of accessed information.
    So I would ask whoever wants to respond to this, Mr. 
Bordoff, Mr. Houska Mr. Lowe, is there a problem? What is wrong 
with that data? That data seems to say that there is not a 
problem with the voluntary system. What is wrong with that 
data?
    Mr. Bordoff. Well, one of the problems is that when you are 
stating the number of complaints, most of these automobile 
repair shops are small, three, four, five employees on a street 
corner. They do not either to complaint or they do not even 
know how or who to complaint to. So the problem is a lot larger 
than the number of complaints.
    You mention is it really necessary since it is being done 
voluntarily. Some car manufacturers are doing it better than 
others, so what we are having, and Chairman Barton said it, we 
are having a bigger problem with the foreign companies than the 
domestic companies, so that we can take care of some cars, but 
not others.
    Congressman Shuster said 75 percent of the repairs are done 
outside. That is true, but 75 percent of the repairs are done 
low tech, and 75 percent are done on older cars. And as the 
cars are becoming more complex, more computerized and the newer 
cars are coming in, that 75 percent number unless we get help 
is going to drop to 60, 50 and even less than that in the 
future.
    Mr. Lipinski. Mr. Houska or Mr. Lowe, is there anything? 
You do not have to add anything.
    Mr. Houska. Also, a lot of repair shops do not even know 
there is the system to report. ASA knows about it, but a lot of 
shops are not ASA members.
    Mr. Lipinski. What about the 99 percent success rate that 
is reported?
    Mr. Houska. Well, you have to wonder why there is only 48 
complaints in the whole country. There is something wrong with 
that system of reporting if that is the only number of 
complaints you get.
    Mr. Lipinski. Well, let me ask Mr. Ehlert to respond to 
that.
    Mr. Ehlert. Repeat the part you want me to respond to.
    Mr. Lipinski. Well, I just want you to respond to their 
arguments, Mr. Bordoff and Houska, about that there are 
problems, and one of the problems--we have this low number of 
complaints as you stated, but they do not know how to complain 
or who to complain to, or it is difficult to complain.
    Mr. Ehlert. Well, the system has been as heavily publicized 
as it could possibly be over the last two plus years since it 
has been in place. It functions very well at my shop. I do not 
have these problems, and I primarily work on foreign-
manufactured vehicles, and I have full access to the stuff I 
need.
    On the other hand, I do not need the entire bid stream of 
an engine control unit in order to repair that vehicle. I do 
not need to know every bit of software that was programmed into 
it. And I have access to the information that I do need to make 
that repair, so I am not running into these brick walls that I 
am hearing about.
    I do not know what preparation steps the shops that are 
having the complaints have not taken, but the information for 
me is completely available.
    Mr. Lipinski. Let me ask--change very quickly. Mr. 
Cabaniss, you had mentioned Chairman Barton here said they have 
changed the bill to protect intellectual property. What 
concerns--you raised concerns though in your testimony. Why do 
you think this bill does not protect the intellectual property 
rights?
    Mr. Cabaniss. Well, the problem with the bill as it is 
currently written is that there is still some ambiguities 
there, so we are not sure which part to read one way and which 
part to read another way.
    For instance, there is some language that says that trade 
secrets are protected, but there is also language in the bill 
that is somewhat vague. It says ``No information necessary to 
repair vehicles shall be withheld by a manufacturer if such 
information is provided directly or indirectly to franchised 
dealerships or other facilities.''
    The problem there, the word ``indirectly''. Manufacturing, 
design and repair processes are all integrated, so where do you 
draw the line on what is protected and what is not protected?
    These kind of ambiguities that are in the law give us 
concern because we do not want to have to go and fight 
plaintiffs in courthouses all across the country where they are 
challenging trade secret issues.
    Chairwoman Musgrave. The time has expired.
    We are advocates of small business, and one thing that we 
always have before us though is what is best for the consumer, 
and I would like a proponent of the bill to say why passage of 
the bill is the best thing for consumers, and an opponent to 
give their case as to why it would not be good for consumers if 
the bill passed.
    Would a proponent go first?
    Mr. Bordoff. Without going into a long thing here, again, 
we need rapid repair for the consumer, and when he has to wait, 
especially now with the warranties of these new cars are 
getting longer and longer, some are up to 10 years and 100,000 
miles, four years, 50,000 mile warranties are becoming very 
common. Chrysler has gone to seven years, 70,000 miles. The 
dealership are getting busier doing warranty work, which they 
have to do. Warranty work is not allowed to be done on the 
outside.
    So as they are getting busier, it is getting harder and 
harder for the consumer to get his car in for a repair that is 
not under warranty. So again, it is the time it is going to 
take the consumer if he cannot bring it to his local shop to 
get repaired. And we are trying to cut this off before the 
problem really becomes bad.
    As the cars, again, become more complex, this problem is 
going to get worse. Right now most of the repairs are low tech 
repairs, brake repairs, and that is why you are not seeing the 
complaints, and most repairs are successful.
    Chairwoman Musgrave. Thank you. Now an opponent of the 
bill, please?
    Mr. Cabaniss. The auto industry is all for consumer choice. 
We support wholeheartedly the consumer having the choice of 
getting their vehicle fixed anyplace that they choose, and that 
is why we support working with the aftermarket for solutions.
    Given the volume of information that is involved in 
covering 600 models or so that are sold each year there is an 
extensive amount of effort and resources on the part of 
manufacturers needing to make this information available. If we 
introduce bureaucratic processes into this, the outcome will 
simply slow down the process by diverting manufacturers' 
attention and resources away from solving service problems and 
instead dealing with regulatory matters.
    Our experience also indicates that regulatory processes 
tend to create adversarial relationships among the parties 
rather than supporting and working cooperatively together, 
which is what we need to reach--to identify any problems and 
work toward resolution. We need a voluntary cooperative 
process, which we have in place today with the NASTF.
    We do need the support of other organizations. Right now we 
have over 100 organizations involved in that process, but many 
of those choose not to participate fully for one reason or 
another.
    What we need to keep consumers happy, and believe me, the 
auto manufacturers are all for having happy consumers, making 
sure that they have good driving experiences, and come back to 
the showroom the next time around to buy the next car. So you 
know, that is what we need to keep consumers happy is a good 
system that works.
    Chairwoman Musgrave. Thank you very much.
    Mr. Udall?
    Mr. Udall. Thank you, Madam Chair.
    When the Clean Air Act amendment was passed in 1990, it 
took five years before any regulations were promulgated, and 
then it took 13 years before they were finalized. As you heard 
Chairman Barton testify before you, he said that if his bill 
was enacted, it would take away the voluntary system that is in 
place, and he was urging that the voluntary system come in 
place, but he said if the law is passed, then the voluntary 
system goes away.
    My question to any of you that are willing to answer it 
here is if this bill were to pass the current voluntary system 
under the National Automotive Service Task Force goes away, how 
would independent repair shops get any service information?
    I mean, we are going to have a long period of time to get 
this up and running. Please, anybody.
    Mr. Lowe. May I comment on that?
    Mr. Udall. Yes, please.
    Mr. Lowe. I think it is important to remember that the 
legislation really mirrors the promise that the vehicle 
manufacturers made to make all their service information 
available. So if the bill passes, they do not have to 
necessarily just stop making information available. That 
information as they promised should still be enough to comply 
with the legislation.
    So in reality, when the bill passes nothing really changes 
if they do what they say they are doing.
    The issue really gets to the car companies that are not 
complying with the promise or who are not putting their effort 
into making information available. They are the ones that would 
have something to worry about.
    So those that are now doing their best to get information 
out there, and some are doing a much better job than others, 
they will be able to continue to do that.
    One other issue I just want to address is the issue of the 
testing of the lawsuits that NASTF representative brought up. 
Since the Clean Air Act has passed and the information 
availability regulations were enacted, which were actually in 
1995, and they were revised recently, there has never been any 
challenges, legal challenges by the car manufacturers to some 
of the requirements. There have not been court battles.
    This has gone through--this information is out there, and 
it has worked. It is not perfect. There are problems, but it 
has worked.
    So I really take issue with that statement that there are 
going to be problems with this bill passing. I simply think it 
will make sure that everybody does--lives up to their promise.
    Mr. Udall. Any--yes, please.
    Mr. Ehlert. Currently, the system we have in place is here 
because of voluntary business agreements. If the legislation 
were to pass, there is no reason, there is no mechanism within 
the voluntary agreement for it to continue.
    If I were to lose information access today, it would be 
disastrous. Previous to 2003, I had a large room in my shop 
dedicated to original equipment manufacturers' manuals. I do 
not have to keep those anymore. Any questions that come up are 
readily available on each of my technician screens as they are 
needed. That has been a substantial improvement in the 
efficiency of the operation of my business.
    Without that information, I could go out of business.
    Mr. Udall. Do any of the other panelists have comment on 
those issues?
    Mr. Cabaniss. I would add that with regard to EPA's 
regulations being in place for the past period of time the 
regulations came from the Clean Air Act, as was explained at 
the outset of the hearing. The Clean Air Act has just a couple 
of sentences in it about service information. It does not have 
the pages and pages of language that is in the H.R. 2048. And 
when you have pages and pages of a language it causes a number 
of issues when you have the vague pieces, an example of which I 
provided earlier.
    The interesting thing is is that today the automakers are 
all, everyone of them, there are no exceptions, are providing 
information for non-emission systems on the same basis as EPA's 
regulations require it for emissions-related information. 
Therefore, we do not understand how there is--why there are 
these complaints about the lack of information being available.
    It is available bumper to bumper for the car on the service 
websites of the auto manufacturers. So we do not understand 
what there is to be gained by this legislation other than to 
establish a bureaucratic process that will simply cause delay 
after delay. It took EPA 13 years to get that second rule 
through after the Clean Air Act. So it just makes no sense to 
us to have that kind of situation repeat itself.
    Mr. Udall. Thank you.
    Chairwoman Musgrave. The time has expired. Thank you, Mr. 
Udall.
    Thank you, witnesses, for your testimony today. We 
appreciate it very much, and this hearing is adjourned.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3178.001
    
    [GRAPHIC] [TIFF OMITTED] T3178.002
    
    [GRAPHIC] [TIFF OMITTED] T3178.003
    
    [GRAPHIC] [TIFF OMITTED] T3178.036
    
    [GRAPHIC] [TIFF OMITTED] T3178.037
    
    [GRAPHIC] [TIFF OMITTED] T3178.038
    
    [GRAPHIC] [TIFF OMITTED] T3178.039
    
    [GRAPHIC] [TIFF OMITTED] T3178.004
    
    [GRAPHIC] [TIFF OMITTED] T3178.005
    
    [GRAPHIC] [TIFF OMITTED] T3178.006
    
    [GRAPHIC] [TIFF OMITTED] T3178.007
    
    [GRAPHIC] [TIFF OMITTED] T3178.008
    
    [GRAPHIC] [TIFF OMITTED] T3178.009
    
    [GRAPHIC] [TIFF OMITTED] T3178.010
    
    [GRAPHIC] [TIFF OMITTED] T3178.011
    
    [GRAPHIC] [TIFF OMITTED] T3178.012
    
    [GRAPHIC] [TIFF OMITTED] T3178.013
    
    [GRAPHIC] [TIFF OMITTED] T3178.014
    
    [GRAPHIC] [TIFF OMITTED] T3178.015
    
    [GRAPHIC] [TIFF OMITTED] T3178.016
    
    [GRAPHIC] [TIFF OMITTED] T3178.017
    
    [GRAPHIC] [TIFF OMITTED] T3178.018
    
    [GRAPHIC] [TIFF OMITTED] T3178.019
    
    [GRAPHIC] [TIFF OMITTED] T3178.020
    
    [GRAPHIC] [TIFF OMITTED] T3178.021
    
    [GRAPHIC] [TIFF OMITTED] T3178.022
    
    [GRAPHIC] [TIFF OMITTED] T3178.023
    
    [GRAPHIC] [TIFF OMITTED] T3178.024
    
    [GRAPHIC] [TIFF OMITTED] T3178.025
    
    [GRAPHIC] [TIFF OMITTED] T3178.026
    
    [GRAPHIC] [TIFF OMITTED] T3178.027
    
    [GRAPHIC] [TIFF OMITTED] T3178.028
    
    [GRAPHIC] [TIFF OMITTED] T3178.029
    
    [GRAPHIC] [TIFF OMITTED] T3178.030
    
    [GRAPHIC] [TIFF OMITTED] T3178.031
    
    [GRAPHIC] [TIFF OMITTED] T3178.032
    
    [GRAPHIC] [TIFF OMITTED] T3178.033
    
    [GRAPHIC] [TIFF OMITTED] T3178.034
    
    [GRAPHIC] [TIFF OMITTED] T3178.035
    
                                 <all>

</pre></body></html>
